<html>
<title> - THE UNITED NATIONS: PROGRESS IN PROMOTING U.S. INTERESTS</title>
<body><pre>[Senate Hearing 106-296]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-296


 
        THE UNITED NATIONS: PROGRESS IN PROMOTING U.S. INTERESTS

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 3, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations

                               <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate


                      U.S. GOVERNMENT PRINTING OFFICE
 61-868 CC                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS

                     ROD GRAMS, Minnesota, Chairman
JESSE HELMS, North Carolina          BARBARA BOXER, California
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
BILL FRIST, Tennessee                RUSSELL D. FEINGOLD, Wisconsin

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Holbrooke, Ambassador Richard C., United States Representative to 
  the United Nations.............................................     8
    Prepared statement of........................................    12

                                 (iii)



        THE UNITED NATIONS: PROGRESS IN PROMOTING U.S. INTERESTS

                              ----------                              


                      Wednesday, November 3, 1999

                               U.S. Senate,
          Subcommittee on International Operations,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:41 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Rod Grams 
(chairman of the subcommittee) presiding.
    Present: Senators Grams, Lugar, Biden, Sarbanes, Kerry, 
Feingold, and Boxer.
    Senator Grams. Good afternoon. I would like to bring this 
hearing to order. Just one brief thing: I guess we have a 
series of votes coming up at about 3:30, so we will try to get 
as many of our questions and statements in as we can up until 
then.
    This is a hearing, of course, on the progress in promoting 
U.S. interests at the U.N. Our panel today is made up of the 
Honorable Richard Holbrooke. Richard, thank you very much for 
being here. Ambassador Holbrooke, I would like to thank you 
again for coming to detail the progress that the United States 
has made to our interests of achieving an improved U.N. as we 
enter the next century.
    Right now we are at a very critical juncture. We finally 
are on the verge of settling the issue of our arrears. I for 
one am anxious for that to happen so that we can focus on 
promoting our national interests instead of the intricacies of 
ACABQ, the OIOS, and the ILO, and a plethora of other U.N. 
entities with acronyms for which only a handful of people 
really understand what they all mean.
    Secretary General Annan once stated that a reformed United 
Nations will be a more relevant United Nations in the eyes of 
the world, and he was correct. But that will only happen if we 
succeed in shaping the United Nations to be an organization 
that the U.S. needs as much as the U.N. needs the United 
States.
    Congress is receiving mixed signals at best from the U.N. 
on the commitment to reform. Last week Secretary General Annan 
compared the U.S. demand for a no-growth budget to a 
``starvation diet year upon year'' as he repeated his request 
for a substantial increase from the current budget level. In 
contrast, the U.N.'s outgoing Inspector General, Karl Paschke, 
said that the U.N. could cut $55 million from its budget if it 
would follow his recommendations. Mr. Ambassador, there appears 
to be a divergence of views in the Secretariat on how lean the 
U.N. budget actually is, and of course in our questioning I 
would really appreciate your views on this matter.
    As we all know, establishing priorities does not mean 
deciding where the organization should focus more attention 
without giving thought to where it should do less. The 
Secretary General has called for funding to be increased for 
African development, humanitarian assistance, human rights 
promotion, anti-drug trafficking measures, anti-organized crime 
efforts, internal oversight, capital expenditures, and also 
special political missions whose mandates have now expired.
    I believe that the U.S. should support additional resources 
for these areas as long as commensurate savings are achieved 
from outdated programs and wasteful practices. The U.N. seems 
unable to eliminate any program or eliminate any committee 
whose mission has long expired.
    Now, to this end I hope that this year the President will 
sign into law the package which links the payment of arrears to 
the achievement of reform benchmarks. These are common sense, 
achievable reforms, and we are calling for a code of conduct 
with an anti-nepotism provision, a mechanism to sunset outdated 
and unnecessary programs, and also, importantly, transparency 
in the budget process. We do not need to micromanage the United 
Nations, but we need to make sure a proper structure is in 
place for the U.N. to be able to manage itself.
    We must pay our arrears to the U.N. In doing so, however, 
we should put the arrears in perspective. Throughout the 
history of the United Nations, the U.S. has always been its 
most generous donor. The United States contributes around $2 
billion to U.N. organizations and activities every year. This 
is three times more generous than any other permanent member of 
the Security Council, and I do not believe success in any of 
these areas where the U.N. excels would be possible without the 
high level of U.S. support.
    Now, that being said, ensuring the arrears package is 
approved and paid again is one of my highest priorities during 
the last days of this session. I well recognize the U.S. 
mission's job is more difficult, of course, without the arrears 
package signed into law, but you have shown that it can be 
done. You have already won a seat for an American on the ACABQ, 
which everyone said was impossible given the current climate. 
Our hat is off for you and your efforts, and I look forward to 
hearing from you today on the progress we have made and the 
challenges we still face in promoting the U.S. agenda in the 
Security Council as well as in the General Assembly. So I join 
you in seeking to make the U.N. a more viable and very 
successful organization.
    Richard, thank you very much again for being here.
    Senator Biden.
    Senator Biden. Thank you, Mr. Chairman.
    And Dick, you thought Bosnia was tough. Be careful what you 
wish for; you may get it. You are now our Ambassador. As a 
friend, an old coach of mine, used to say, lots of luck in your 
senior year, kid.
    Just imagine what you could do if you had a bat. You are up 
at the plate, you are actually hitting the ball. You do not 
even have a bat yet, and we keep holding it in arrears here, so 
to speak.
    I am happy you are here today. After 9 weeks on the job, it 
really is, as the chairman said, it has been remarkable. The 
idea that you would be able to get us back on the most 
important committee is a testament to your skill.
    Of course, when we consider U.N. issues today, at the top 
of the list now is going to be the loss of our seat in the 
General Assembly if we fail to pay what even we acknowledge we 
owe by December 31 of this year. The question of paying arrears 
is not just a budgetary question. It is a question of how much 
we value the work of the United Nations and whether or not we 
want the United Nations to play a prominent role and whether 
the United States will be able to play a prominent role within 
the United Nations.
    Obviously, we do not lose our seat in the Security Council, 
but it does, surely does impact upon our, your ability to 
engage your persuasive capabilities when in fact we might not 
even have a seat in the General Assembly or a vote in the 
General Assembly.
    I cannot believe the American people are going to be very 
happy to wake up on New Year's Day in the new millennium and 
find out that the world's only superpower can no longer vote in 
the United Nations General Assembly. I am not suggesting that 
the American people have that at the top of their agenda, but I 
am suggesting that they have an intuitive notion that it just 
makes no sense, the way in which we are conducting ourselves 
here in Congress relative to our responsibilities and our 
obligations to the United Nations.
    I was pleased to join with Chairman Helms, who I might say 
has been extremely good on this issue, in a bipartisan effort 
in the Senate to pay back our arrears and encourage reform in 
the United Nations. We have been working on the so-called 
Helms-Biden package since 1997 and in fact it has been passed 
by this body in various forms three separate times since then.
    It is of critical importance to the United States' 
leadership both in the United Nations and abroad that there be 
a resolution of the impasse that the House of Representatives 
has engaged in before this Congress adjourns, although I must 
tell, Dick, I am not sure--well, I have been more hopeful about 
other difficult things than I am about this.
    I know you are making a herculean effort in the House to 
make the case why this is a national security issue. This is 
not an issue about Mexico City and abortion; it is a national 
security issue. Senator Helms has made that case in my presence 
with other Members and no one feels more strongly, no one is 
more right to life, no one is a stronger anti-abortion advocate 
than Senator Helms, and Senator Helms has been saying that this 
should be freed up and viewed in the context in which it 
belongs, a national security issue.
    Mr. Ambassador, I know you have been extraordinarily active 
since your confirmation wrestling, not only with the arrears 
problem, but also with difficult issues such as Kosovo and 
Iraq. People do not fully understand--my colleagues all do, 
obviously, but people do not fully understand the consequences 
of your being crippled or being able to be blindsided when we 
are in a position of weakness at the U.N. and we expect you to 
be able to marshall and mobilize support and opinion at the 
United Nations to matters that we acknowledge to be 
overwhelmingly in our national interest.
    I want to personally apologize for you being in that 
position. You should not have to be in that position. We make 
the job extraordinarily difficult.
    The longer we wait on this, as implied by the chairman, the 
more difficult it is to get the reforms that we have agreed on 
that are needed, that we have agreed upon. In my view it makes 
your job more difficult.
    So I am anxious to hear what you have to say. I appreciate 
your effort. One of the things Madeleine Albright talked about 
when she took over as the Secretary of State was to make 
diplomacy and foreign policy understandable to the American 
people and to talk about it here. Well, I appreciate the fact, 
I do not know of any other U.N. Ambassador that has been 
willing to take the time and effort and understand the 
necessity of making the case for the need at the U.N. person by 
person, Congressperson by Congressperson, Senator by Senator.
    I know it takes a lot of time away from what all of the 
U.N. Ambassadors though they should be spending their time 
doing. That is, making their case to delegates at the United 
Nations, rather than making their case to Congresspersons here 
in the U.S. Congress. But it is important and you are doing it.
    I conclude by saying, when we talk about this arrears 
package most people do not understand what we do, and many 
Congresspersons and Senators do not, I respectfully suggest. We 
are not talking about country club dues we have not paid. We 
are not talking about back dues that go to the Secretary 
General's office. The bulk of the money we owe is arrearages 
that we owe to our allies, to Great Britain and France and 
Germany and others, for past peacekeeping efforts. This money 
will pass through straight to them, the bulk of it.
    So I think as people understand what this is about, we are 
inclined to get more support. I just hope with your not 
inconsiderable help that we are able to move our friends in the 
House to focus on this issue straight up and down and disengage 
it from other unrelated items.
    But again I welcome you. I thank you for having the 
willingness to take the job in the first place, and you are--as 
I said, in the short time you have been there you have made a 
believer out of some doubters, although there were very few of 
those to begin with.
    Mr. Chairman, I thank you for the time.
    Senator Grams. Thank you, Senator Biden.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman. I thank 
you for your personal leadership on U.N. issues and your 
participation in going to the U.N. and working closely with our 
Ambassadors. And I appreciate the work of Senator Helms and 
Senator Biden and the amendment that they have offered and the 
proposal for the payment of our dues.
    Let me just say that at the time that the Helms-Biden 
accord was reached I took the viewpoint on the floor, in an 
amendment that I offered, that we ought to pay the arrears in 2 
years time and without conditions. I did so largely for the 
reasons Senator Biden has talked about today: that two-thirds 
of the money, at least at that time, or more was owed to our 
close allies, Great Britain, to France, Germany, good friends 
of ours who are very important in our foreign policy. And I 
hoped that that would be the course of the Senate.
    Now, it was not. That amendment got 25 votes. There were 74 
Senators opposed to that course of action. But it did offer a 
good opportunity to discuss a couple of years ago in a rather 
full debate that day the activities of the United Nations, the 
importance to the United States and our own foreign policy, our 
own security, of our leadership.
    I applaud you, Ambassador Holbrooke, as our spear-carrier 
now, an outstanding leader for our interests, as well as your 
general humanitarian interests exemplified in so many ways.
    I am hopeful that the President and the administration will 
realize the gravity of the situation, which of course they do 
in a way. But for 2 years we have been hung up on the family 
planning issue. Now, it is a very important issue in this 
country and in the world. So is the payment of our dues. So is 
the United Nations.
    It is going to require, as it already has, some 
accommodation, as Senator Biden has alluded to in his remarks, 
and as he and Senator Helms have tried to work with Members of 
the House. Hopefully, as you work with Members of the House and 
as with members of the administration, including the President 
and the Secretary of State, some type of accommodation is going 
to have to occur for this to happen in a short framework of 
time.
    I believe it will be a national tragedy if something does 
not occur, whatever the strengths there may be for the 
positions that are held by the principals that have led to this 
impasse. So I plead for that understanding. I think you 
understand the issues all too well, but I hope you will be 
effective in the House, the Senate, and with the President.
    I thank you, Mr. Chairman.
    Senator Grams. Thank you very much, Senator Lugar.
    Senator Boxer.
    Senator Boxer. Thank you very much, and thanks to my 
colleagues. I did not know you would all be coming or I would 
not have taken this seat of honor over here. But I will be 
leaving early because I am going to a meeting of the women in 
the House over the CEDAW issue, and I am going to get to that 
in a moment.
    Mr. Chairman, it is a pleasure to be here to welcome 
Ambassador Holbrooke back. It was tough, but it was worth it, I 
think, just seeing you on the Hill working with colleagues and, 
as the Senators have acknowledged, working hard to see that the 
U.S. pays its dues, its arrears. To me, to have a dispute over 
family planning and U.N. dues, I mean, the average person would 
say: What is this about? They are separate issues and they 
should not be commingled, as they say.
    I am very hopeful that you would be very effective on 
getting the Members of the House to understand the importance 
of separating these matters.
    I want to talk to you about the Convention on the 
Elimination of All Forms of Discrimination Against Women, which 
the U.N. General Assembly approved in 1979. I raised the issue 
with Secretary Albright in February of this year and she said 
on the record this was one of her priorities, and she actually 
said to the chairman in this open session that she was hopeful 
that he would hold a hearing on the treaty. Although it was 
signed by President Carter in 1980, the Senate still has not 
ratified it.
    This issue is somehow striking a chord out there among the 
general public and as a result the Members of Congress have 
started to get involved. I applaud that. I think it is good 
that they are involved, because I want to say this: Only a few 
nations around the world have refused to ratify this treaty and 
these include North Korea, Afghanistan, Iran, and Syria. North 
Korea, Afghanistan, Iran, and Syria, and I do not like us 
standing with these countries rather than with the 165 nations 
who have ratified or acceded to the treaty.
    So because my time is somewhat limited, if my time runs out 
before I get to ask you these questions, I would like to submit 
them for the record because I think they are very important. 
They go to the question of your view on how important is this 
treaty and some other questions. But I am absolutely delighted 
to see you here and, as Senator Biden said, it is a tough job 
that you have and we applaud you for what you are trying to do, 
which is to get the American people in many ways focused on the 
importance of America as a world leader.
    So thank you very much.
    Thank you, Mr. Chairman.
    Senator Grams. Thank you, Senator Boxer.
    Senator Kerry.
    Senator Kerry. Mr. Chairman, let me just take a moment, if 
I may. Thank you for affording each of us an opportunity to say 
something and welcome, Mr. Ambassador.
    I want to associate myself with the words of the Senator 
from Indiana. I think his voice is enormously respected 
internationally for the leadership he has offered over the 
years with respect to international affairs. I have not served 
on this committee as long as our good Ranking Member Senator 
Biden or the Senator from Indiana, but 15 years is a fairly 
long time.
    And I will tell you, I have never been more disappointed, 
more concerned, more frustrated than I am now at this moment, 
when we face such extraordinary challenges on a global basis, 
to find us caught up in such petty, partisan, picayune politics 
that is literally undermining the national security interests 
of this country.
    The national security of this country is not just measured 
by missiles and troops. It is measured by relationships that 
are nurtured over a long period of time in the international 
arena. To have us, the United States of America, who have 
fought so hard through this century to buildup international 
multilateral capacities--which is the only way to solve most of 
the problems of the world ultimately--to have us undermining 
that in the way that we are, to have us threatened with the 
loss of our vote, not by discretion but by statutory rationale, 
is inexcusable, inexcusable.
    I say to my friends on the other side of the aisle, they 
should feel some sense of decency and responsibility for all of 
this. To be hung up once again over language that we fight 
about every year here on an issue that has precious little to 
do with fundamental national security issues, but is really 
caught up in a different kind of politics, is just 
unacceptable.
    So I am greatly saddened by it. I welcome you here today 
finally, after you were held up for a year or more and put 
through the most onerous process before your talents were 
committed to the larger interests of this country.
    I hope--the great power we have in this country ultimately 
is the ballot box and not long from now, exactly 1 day plus 1 
year from now, Americans will have an opportunity to express 
themselves and I hope they will. I will do my best to carry the 
message to the country that they not forget what has happened 
in these past years.
    Too much does not happen here or happens here for which 
there is no accountability. I think it is up to us to try to 
help create that accountability and I certainly intend to try 
to do so.
    But I welcome you here, Mr. Ambassador. I am sorry. I know 
what you are going through at the U.N. I know how many people 
come up to you every day and say to you: Why should we 
cooperate with the United States? You have not even paid your 
dues. Why should we listen to you? You are a renegade. You are 
irresponsible. You do not live by the rules; why should we live 
by the rules? I have heard it and I know you hear it.
    Mr. Chairman, I hope that we can do everything in our power 
as a responsible committee to get us on a track where we are 
not playing this kind of a dangerous game.
    Senator Grams. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, and thank you, 
Ambassador Holbrooke.
    Let me first agree strongly with my colleague from 
California about the Convention on the Elimination of All Forms 
of Discrimination Against Women. I am noticing a genuine 
groundswell of concern and support back in my State and around 
the country on this, and I really do hope that this committee 
will take action on it.
    Mr. Chairman, I am pleased that the committee is addressing 
the role of the United Nations as a forum to promote United 
States interests today as the Congress and the administration 
continue negotiations on the fiscal year 2000 Federal budget. 
As my colleagues know, ever since I have been here I have tried 
to show that I firmly believe that we have to take a critical 
eye to all Federal spending to determine where we can cut 
unnecessary or redundant items and to continue to move toward a 
truly balanced budget, and I think that applies to our 
expenditures having to do with foreign relations and the U.N.
    But that scrutiny must be thoughtful, and I am very 
concerned that the United States is not honoring its financial 
commitments to the United Nations. America's failure to honor 
its financial commitments casts a shadow on our Nation's 
credibility and doubts our capacity for leadership. The issue 
looms over our ability to be an effective advocate in the 
General Assembly and the Security Council on issues ranging 
from common sense reforms within the United Nations to matters 
of policy to a reduction in our national--an opportunity to 
possibly get a reduction in our national assessment for the 
U.N. regular budget.
    I agree with many of my colleagues and many in the 
administration, including Ambassador Holbrooke, that there is 
room for improvement and reform in the day to day operations of 
the U.N. I also agree, though, that it is absolutely essential 
that we honor our financial commitments.
    Like many members of this committee, I supported the so-
called Helms-Biden package to pay $926 million of outstanding 
arrears. In fact, I supported the Lugar amendment, which was 
even stronger and I think an even better proposal. But I regret 
that the agreement that Senator Biden was involved with appears 
to again be entangled in a debate over extraneous issues.
    Mr. Chairman, we cannot risk losing our vote in the General 
Assembly in January, which will happen if we do not pay our 
bills. American leadership is at stake and I hope that the 
Congress and the administration will be able to come to an 
acceptable agreement on this issue before this country loses 
even more of its credibility in the United Nations.
    Despite that organization's flaws, it still retains much of 
the promise it offered at its creation. It is still a useful 
forum for burden-sharing, international cooperation, and the 
preservation of peace and stability worldwide.
    So again, Ambassador Holbrooke, I look forward to your 
testimony and I congratulate you on your role at the U.N.
    Thank you, Mr. Chairman.
    Senator Grams. Thank you, Senator Feingold.
    Ambassador Holbrooke, we would like to hear from you in 
your opening statement.

    STATEMENT OF HON. RICHARD C. HOLBROOKE, U.S. PERMANENT 
              REPRESENTATIVE TO THE UNITED NATIONS

    Ambassador Holbrooke. Mr. Chairman, it is a great honor to 
appear before you again, my first chance to testify since 
confirmation. I express again my gratitude to you and those 
members of the committee who are not here today for taking me 
through your committee unanimously and shepherding me through 
the full Senate.
    I have listened carefully to the six statements that have 
just taken place and there is really nothing that has been said 
that I would disagree with. So let me just make a couple of 
quick observations because I know that you are all going to 
have to vote in a minute and we can get to your questions.
    First of all, I have a formal statement prepared in advance 
I would like to submit for the record.
    Senator Grams. It will be so entered.
    Ambassador Holbrooke. But what I would like to do now is 
respond informally to the comments that you have just made.
    First of all, the $926 million that the Senate voted 97 to 
1 is essential. You have all talked about losing the vote in 
the General Assembly. But I need to be very frank with you. 
Less money than $926 million is required to keep the vote. We 
need the full $926 million to function. The U.N. is still going 
to say we owe them more money than that, but that money, which 
is in the budget cap for this year but not next year, is the 
absolute minimum that we need for our national security needs.
    Almost all of you have made the same point in different 
ways. This is not a vote to give money to bureaucratic fat cats 
living in New York City; this is money for our national 
security interests. Senator Biden mentioned some of the money 
going back to our allies. You might add, sir, that over $100 
million of it comes back to us. Over $100 million of the $926 
million goes to the Pentagon, so it is really a little more 
than $800 million.
    No bargain could be much more of a bargain. And this is not 
just money that flows through and then disappears. The U.N.'s 
cupboard is bare and we have national security interests at 
work in East Timor, Sierra Leone, Kosovo, and elsewhere in the 
world where we are getting a terrific bargain by the leveraging 
effect.
    Let me, because I do not want to review the whole world, 
let me focus for a moment on East Timor, a subject of interest 
to many of you and particularly Senator Feingold, who has been 
in the forefront of keeping this issue before the national 
consciousness for the last few years. On Labor Day weekend, the 
weekend I assumed my responsibilities after returning from 
Kosovo, the Indonesian troops were rampaging through East 
Timor. It could not have looked worse. It looked like Kosovo.
    The United Nations sent a delegation headed by the Namibian 
Ambassador, but very well balanced with the British, Slovene, 
Dutch, and Malaysian Ambassadors, to Indonesia. That mission 
took General Wiranto, who was publicly denying the evidence the 
world was able to see, to Dili. He saw the evidence. They 
brought him back to Jakarta and within 48 hours the 
international pressure, focused through the United Nations 
Security Council, had produced a stunning capitulation of the 
Indonesian leadership for what now is the multinational force.
    We then in New York forced the Security Council to stay in 
session around the clock until we got a Chapter VII resolution, 
including Chinese approval--almost unprecedented--for a 
unanimous dispatch of these troops. Most of the world thinks 
this is a U.N. peacekeeping force, but it is important to 
stress it is not a blue-helmet U.N. force. It is a 
multinational force under Australian leadership, to which we 
are making a small but important contribution, given the fact 
that the Australians have fought on our side throughout this 
century.
    This is a nearly textbook example, although it is sloppy 
and messy as everything in Indonesia is, this is an almost 
textbook example of what the founding fathers, particularly 
Franklin D. Roosevelt and Winston Churchill, had in mind when 
they created the modern U.N. system and the Security Council. 
The cost to the U.S. taxpayer is small, and if you did not have 
the United Nations Security Council I do not know how we would 
have gotten out of this thing, I really do not.
    Now, I mention East Timor, although Kosovo is of more 
immediate concern to us because we have several thousand troops 
on the ground at risk, because it seems to me to be a classic 
proof of what Senator Grams and the rest of you already said: 
We cannot do business without the money. There are troops in 
some of the Southeast Asian countries waiting to go to East 
Timor now, who cannot go unless we guarantee they are going to 
get reimbursed.
    Unlike the British and French who Senator Biden referred to 
earlier--Senator Biden is correct in what he said, but they, 
the British and French, are willing to wait on the money. There 
are other countries which just cannot send the troops unless 
someone else pays for them.
    Now, I do not see what evidence anyone could need more than 
this of the essentiality of the United Nations and its value. 
To be sure, it is bloated, it is inefficient, it needs cleaning 
up, all the usual things which I might add apply to almost 
every bureaucracy that I can think of, not excluding the 
executive branch of which I am a member. But net-net to the 
United States, this is a national interest of the highest 
value.
    Now I would like to comment briefly on some of the 
specifics that you raised and add a couple of other things. 
First of all in regard to Senator Boxer's point, I do not have 
time to go into it today, Senator Boxer. I have not yet gotten 
into this issue in detail. I look forward to discussing it with 
you in detail during your forthcoming trip to New York, at 
which we are going to plan a whole half day on this issue.
    Secretary Albright has spoken directly of the 
administration's strong support for this, as has President 
Clinton, and I assure you I fully share that, and I look 
forward to planning some very intense discussions focused 
around that when you come to New York on November 15.
    Second, in regard to the general reforms, I am very 
grateful for the comments of Senator Biden, Senator Kerry, 
Senator Lugar, and Senator Grams on the ACABQ. I want to 
particularly acknowledge Senator Grams' personal role in coming 
to New York as the first congressional visitor that we had and 
going personally to the Fifth Committee to make a physical 
demonstration of the fact that both branches and both parties 
were concerned about this.
    The actual vote is the day after tomorrow, so we are not 
quite there yet. But as you all know, we will be unopposed 
within the Western European and Other Group, so there is every 
reason to assume that your optimism will be justified.
    Other reforms, with one exception I want to get to in a 
minute, are going to have to be more directly linked to the 
money. I must be frank with you, I must be honest. You have 
asked in the Helms-Biden legislation, to which I am pledged 
before this committee during my confirmation hearings to work 
toward fulfillment of, you have committed us, assuming this 
becomes the law of the land, to getting zero nominal budget 
growth and a reduction in our assessments from 25 percent to at 
least 22 percent and a whole host of other important reforms.
    But I single those two out for a reason. Notwithstanding 
your kind words about what we have already accomplished in the 
last 7 weeks, I could not in all honesty tell this committee 
that we had any chance of reducing our assessment from 25 to 22 
percent and getting the rest of the world to increase their 
percentages if at the same time I am carrying, to use Senator 
Biden's apt metaphor, no bat. That is just not possible.
    We are getting slammed, not by Cuba, Libya, and Iraq--in 
fact, the Cubans were surprisingly moderate in their attacks in 
the Fifth Committee--but by the British and the Japanese and 
other countries, who are saying in unmistakable terms: Do not 
ask us to increase our money before you show us you have got 
some of your own. I hate to quote Jerry Maguire, but they are 
saying: ``show me the money.''
    That is a reasonable position. If the Congress sends the 
President the bill in a form that he accepts it--and this gets 
into the whole larger budgetary battle which several of you 
have already alluded to--then you will have given me and my 
colleagues in New York and Washington, including the Secretary 
of State, the mandate and the framework for a clear, 
unambiguous policy for the next 15 months.
    I take your point, Senator Lugar, about your original 
amendment, and we are now joined by the one Senator who 
actually voted against the package on the grounds that were 
consistent with your proposal. I respect greatly the position 
you and Senator Sarbanes took. But the fact is that I am bound 
by my confirmation process, when I was under oath, to make this 
package work, and I cannot do that without--we cannot do that; 
excuse the first person singular--we cannot do that without the 
money.
    I mentioned the one issue which is outside the package 
which is of equal importance, and I want to stress that. That 
is, of course, Israel's membership in the Western European and 
Other Group. Secretary Albright, President Clinton, and I are 
waging a full-court press on our Western European allies on 
this issue.
    There has been some progress. The new Israeli Government 
has raised the profile of their concern. We cannot be in the 
position of caring more about Israel's membership in the WEOG 
than Israel itself. But the Barak government has shown that it 
attaches the highest importance to this.
    I have raised it with every member of the European Union in 
New York. Secretary of State Albright has talked to at least a 
half dozen foreign ministers personally in the last week about 
this. I have not been able to talk to her since she returned 
from Oslo, so that number may be lower--the number may be 
higher than I have just cited.
    Many Members of Congress, including some of you in this 
room, have joined this issue by talking directly to certain 
governments who are still ambivalent or recalcitrant. I thank 
you all for this. It is not productive to name names at this 
point in public because the battle is going on. We are making 
progress, and I pledge to you, in addition to Helms-Biden, that 
we will not rest until Israel is removed from a category of 
one, of countries not allowed in any group. It is an outrage. 
It is an absolutely unacceptable outrage.
    The Europeans say they should be in the Asian group, but in 
point of fact that is not realistic at this point. All that we 
are asking is temporary membership in the WEOG, temporary 
membership. We are not going to stop until we are satisfied 
that justice has been done.
    Mr. Chairman, again I thank you for this opportunity. Let 
me conclude with a comment that refers to references that 
several of you, particularly Senator Kerry, made to where we 
stand. You have all made reference to the fact that I have been 
absent from this side of the Capitol and spending most of my 
time on the other side. I have now met with over 60 Members of 
the House individually since I last saw you.
    Many of them, indeed most of them, are not on Foreign 
Relations or Foreign Operations or Armed Services Committees. 
Many of them are first and second and third year Members whose 
entry into the Congress well post-dates the fall of the Berlin 
Wall. Many of them have had limited involvement with foreign 
affairs and I will say in fairness to them that a lot of them 
did not understand--I stress this--a lot of them did not fully 
appreciate that their votes on the family planning issue were 
also national security votes.
    We have here the extraordinary conjunction of two momentous 
issues in American history, national security--because this is 
not a pro-U.N. vote, this is about U.S. national security, as 
Senator Kerry said so eloquently--and one of the two most 
contentious issues, along with race, in American society, the 
issue of abortion, family planning, when does life begin.
    The intersection of these two issues is deleterious to both 
and, although there have been many political aspects to foreign 
policy over the lifetime of all of us, I can think of no 
similar interaction of such dimensions. All the administration 
has asked is that the two issues be de-linked, allow the family 
planning issue to continue on its own merits in a separate 
arena. That is all that we have asked. It is a reasonable 
request.
    We respect the passions and the commitment of people who 
care about this issue and, as Senator Biden and Senator Kerry 
both said, no one has stronger pro-life credentials than the 
chairman of this committee, Senator Helms, and I might add the 
Senate Majority Leader, Senator Lott, with whom I have talked 
at length about this. But if they and many Members of the House 
and many Members of both parties are willing to decouple the 
two issues, I would urge respectfully that this is what 
happens.
    So I thank you. All we are asking is that the package we 
are committed to, the Helms-Biden package negotiated with 
Secretary Albright and Under Secretary Pickering, go forward to 
the President unchanged.
    Thank you, Mr. Chairman. I greatly appreciate the honor of 
being called before this committee again in the presence of so 
many friends. Thank you.
    [The prepared statement of Ambassador Holbrooke follows:]

            Prepared Statement of Hon. Richard C. Holbrooke

    Mr. Chairman, Senators. I want to thank you for inviting me here 
today. I appreciate this opportunity to speak with you about how we are 
doing in pursuit of U.S. national interests at the United Nations.
    As I noted during my confirmation hearings in June, consultations 
with the Congress on the takeoffs as well as the crash landings are 
essential. I firmly believe this. For that reason, I not only welcome 
today's hearing but also the close relationship that has developed 
between you, me, and other members of this committee. And I 
particularly appreciate the visits to New York that Senator Grams and 
others have made, and I encourage the rest of you to visit as well. I 
cannot overstate the value of this relationship to our work at the 
United Nations.
                           peace and security
    Simply stated, the United Nations--while an imperfect institution--
continues to be a crucial foreign policy tool for pursuing our national 
interests. With respect to cost considerations--human as well as 
financial--the United Nations provides a forum through which we pursue 
many of our national security objectives at relatively little expense. 
With respect to political considerations, the United Nations provides a 
means by which we obtain critical international support for our foreign 
policy pursuits.
    The UN's burden sharing function is invaluable. Without the United 
Nations, the U.S. would either have to go it alone in places like 
Kosovo, East Timor, and Iraq, where vital national security interests 
are at stake--or risk having them spiral out of control.
    In fact, in mid-October, there were only 37--let me repeat, 37--
U.S. military personnel who were serving in UN peacekeeping missions. 
There were also about 600 civilians assisting in peacekeeping efforts, 
mostly police. Compare that to the nearly 260,000 U.S. military 
personnel deployed around the world, and note that it is also less than 
1% of the high mark of U.S. peacekeeping participation six years ago. 
There are almost as many troops in the Bahamas alone (24) than there 
are assigned to UN peacekeeping missions.
    Mr. Chairman, in the last two months, the UN has established new 
peacekeeping missions in East Timor and Sierra Leone, deployed a 
military assessment team to the Democratic Republic of Congo, 
established a UN office in Angola, and consolidated its peacekeeping 
operation in Kosovo.
    The UN has an important role to play in Sierra Leone, where the 
people are clinging to a fragile peace after eight years of brutal 
civil war, and in East Timor where the people are trying to rebuild 
their lives after twenty-five years of struggle. In Bosnia and Kosovo, 
the UN is helping to lay the foundations of free and democratic 
societies. And in the Congo, the UN is exploring ways that it can help 
consolidate the peace as the largest interstate war in modern African 
history comes to a close. The UN is certainly not a panacea for all 
that ails a troubled world, but it can--and often should--be part of a 
larger solution.
                         united nations reform
    The United States has much to gain from a United Nations that works 
efficiently and effectively, that can deploy peacekeeping missions 
quickly, and that spends its money wisely. It is for this reason, Mr. 
Chairman, that reform is at the top of our UN agenda. Consistent with 
my pledge during my confirmation hearing that reform would be my 
highest sustained priority, it has been my focus for most of the last 
eight weeks.
    One of the key benchmarks included in the Helms-Biden legislation 
was election of a U.S. candidate to the UN's main expert body on the 
budget--the Advisory Committee on Administrative and Budgetary 
Questions, the ACABQ. And because much of the UN's money comes out of 
the pockets of American taxpayers, it is crucial that the United States 
be represented on the ACABQ. As you know, however, the U.S. has been 
kept off of the committee since 1997, due to resentment over U.S. 
arrears to the United Nations. This has been bad for the United States, 
and this has been bad for the United Nations. It just does not make 
sense to keep the largest stockholder from the boardroom.
    I am therefore pleased to report that the U.S. expects to regain 
its place on the ACABQ. The vote, however, will not take place until 
this Friday, and I would not wish to say anything that would disturb 
the consensus in our favor.
    I have also been hard at work on another Helms-Biden benchmark: 
reforming the UN scales of assessment. Reducing the U.S. share of the 
UN's regular budget is and will remain one of my top priorities. I 
fully share your view, Mr. Chairman, that it is simply wrong for the 
United Nations to depend so disproportionately on us. Again, reform of 
this issue would benefit the United Nations as well as the United 
States.
    Although the next official review of the regular budget scale will 
not occur until late next year, we have already begun working this 
issue. We have been raising the issue in bilateral consultations with 
other Ambassadors. I have spoken to Secretary General Annan and his 
staff. And I have personally delivered two strong statements to the 
General Assembly's Fifth Committee. This will be among the toughest of 
the Helms-Biden reforms to achieve. I can assure you, however, that I 
will continue to do everything in my power to make it happen. However, 
I must be frank. We will not be able to achieve this objective if we do 
not obtain the funds contained in the Helms-Biden package.
    Maintaining a zero-nominal growth budget has been another high 
priority issue on which I have spent a considerable amount of time. As 
you know, Mr. Chairman, the General Assembly will decide by the end of 
December on the 2000-2001 biennium budget. The Administration's 
position on this issue remains firm: the biennium budget must not 
exceed $2.533 billion. We reaffirmed this position last week in a 
strong statement to the UN's Fifth Committee.
    The United Nations, however, recently proposed a budget that 
slightly exceeds that level. This is unfortunate, but it is by no means 
insurmountable. Most of the proposed increase owes itself to projected 
inflation and exchange rate costs, which will be reviewed again in 
December just prior to approval of the budget. Nonetheless, we believe 
that continued efforts by the UN to improve efficiency and program 
effectiveness should result in savings that will more than offset any 
increase in inflation and exchange rate costs. In other words, this 
battle is by no means over, and we will continue working with our 
colleagues on the Fifth Committee to achieve a zero-nominal growth 
budget. But again, I must be frank. Without the back dues, we have 
virtually no chance of achieving such a result. Resentment will mount 
and our leverage will disappear--and understandably so.
    Mr. Chairman, during my confirmation hearings, another issue was 
raised that is of the utmost importance to us: Israel's membership in a 
regional group. As we all agreed, Israel's exclusion from the UN's 
regional group system is unfair and unacceptable. I committed to you 
then and I commit to you again today that this situation must be 
changed. Israel is one of our closest, most important allies, and it is 
the only country barred from membership in a regional group. This is an 
outrage, and it undermines the UN's principle regarding the sovereign 
equality of all its members.
    Although Israel rightfully belongs in the Asian group, we have been 
promoting its temporary membership in the Western European and Others 
Group (WEOG) as a viable interim solution. Working with our Israeli and 
key European counterparts, the President, Secretary Albright and I have 
undertaken a no-holds-barred effort. While there have been concerns 
expressed by a few WEOG members, I am confident that these can be 
addressed. It is imperative that Israel be allowed to enjoy a right 
shared by every other member of the UN community.
                   u.s. arrears to the united nations
    Mr. Chairman, without question, we have a lot of important work to 
do at the UN--on budget and reform, on peacekeeping, and on myriad 
other issues in the fields of human rights, economic development, and 
of course, peace and security. Despite its weaknesses and problems, the 
United Nations still provides a forum for us to pursue and protect 
vital American national interests.
    To be effective, however, we must pay our dues. There is absolutely 
no way around it. We have owed the United Nations far too much money 
for far too long. This situation cannot be allowed to continue. For 
this reason, Mr. Chairman, the Helms-Biden legislation is essential to 
our national security.
    The Senate's overwhelming vote this summer in support of the Helms-
Biden legislation demonstrated this body's commitment to pay the 
arrears. I know also that most Members of the House of Representatives 
share this commitment, because they understand what is at stake. They 
understand that without payment of the arrears our credibility will be 
further undermined, our leadership further challenged, and our 
effectiveness further eroded. And, in this regard, they understand that 
the arrears make it difficult--if not outright impossible--to achieve 
the necessary reforms and budget discipline as outlined in Helms-Biden.
    Mr. Chairman, there is also a more immediate concern that demands 
the Congress's attention: Our possible loss of voting privileges in the 
General Assembly. As you know, if a country falls the equivalent of 
two-years behind in its dues, it automatically loses its right to vote 
in the General Assembly. And, as you know, the United States is in 
serious danger of crossing that threshold at the end of this year.
    This would be a disaster. Vote loss would lead to a loss in U.S. 
prestige, influence, and international standing. And vote loss would 
have serious national security and budgetary implications, because it 
would hinder our ability to affect important General Assembly 
decisions, such as those regarding Security Council membership, the 
Middle East, and all financial matters.
    I am therefore asking for your help. We have important work to do, 
but we need the tools to do it. We need passage of Helms-Biden, and we 
need it adopted on its own merits.
    Again, Mr. Chairman, I appreciate this opportunity to appear before 
you and to discuss an issue that is very important to all of us: 
promoting U.S. interests at the United Nations.
    Thank you.

    Senator Grams. Thank you, Mr. Ambassador. We have been 
joined, as you mentioned, by Senator Sarbanes.
    Senator, others have had opening statements. Would you care 
to have opening remarks before we begin questioning? They have 
together been under a half hour in length.
    Senator Sarbanes. Not really, Mr. Chairman. This is a very 
depressing issue to address. That the United States should be 
defaulting in its obligations to the world organization which 
we were so instrumental in helping to establish immediately 
following World War II is a very depressing development. It is 
costing us significantly in terms of our ability to lead and 
exercise influence at the U.N. and consequently around the 
world.
    I have great sympathy for the task that Ambassador 
Holbrooke is engaged in and I wish him every success in it. I 
think it is a major default in meeting its responsibilities on 
the part of the U.S. Congress.
    Senator Grams. Thank you, Senator.
    I would just like to ask one quick question and then I will 
spread it out so everybody has an opportunity also before we 
have to run and vote. Of course, talking about the zero growth 
budget, Mr. Ambassador, the proposed budget for the next 
biennium is more than $100 million over the budget cap. With 
Japan and the U.S. providing nearly half of the U.N. funding, 
it is not surprising that other nations would want an increase.
    The stakes are high because by law there is a $100 million 
withholding of U.S. funds to the U.N. if a budget of $2.533 
billion is not maintained. So I guess I would like to ask you 
just straightforwardly: What are the prospects for achieving a 
zero growth budget?
    Ambassador Holbrooke. Thank you, Mr. Chairman.
    By the way, before I answer your question, the ever alert 
and culturally aware Barbara Larkin would like me to correct 
the record. It was not Jerry Maguire who said ``show me the 
money''; it was his friend played by Cuba Goodling, Jr. So with 
your permission, I would like to correct the record on this 
critical point.
    Senator Grams. Great staff work.
    Ms. Larkin. Thank you.
    Ambassador Holbrooke. That is why Barbara travels with us 
at all times.
    Mr. Chairman, I mentioned earlier the zero nominal growth 
budget and I can only revert to my previous comment. It is the 
Jerry Maguire comment. If we get the funding, I am convinced 
that we will be able to get that $100 million bulge removed 
because we will have the leverage. It is not part of the Helms-
Biden package.
    I have already talked to the Secretary General and to two 
or three of his under secretaries, as you have personally in my 
presence. I know you had private talks with both Kofi Annan and 
Joe Connor on this point. They understood your own strong view. 
They are prepared--I need to be careful here. They are prepared 
to deal with us in a very serious and engaged way when they 
know if we are ready to present them the money.
    Again I say for the record that your personal engagement on 
this issue and your trip to New York last month was immensely 
valuable, and I look forward to the visits to New York not only 
of Senator Boxer, as mentioned earlier, but Senator Biden, 
Senator Feinstein have already scheduled trips. We are looking 
for dates for many of you. Every member of this committee I 
have talked to personally about it, and the more of you that 
can come to New York and help with this cause the more useful 
it will be.
    Thank you very much.
    Senator Grams. Mr. Ambassador, would you permit the U.S. to 
vote for anything more than the $2.533 billion? I say that with 
the backdrop of U.S.-U.N. memo that was circulated that said to 
keep only under the Secretary General's cap, which is about 
$122 million higher. Would you permit any voting higher than 
the $2.533 budget cap?
    Ambassador Holbrooke. Well, I have a feeling that some of 
your staff think that they have trapped me in a sloppy memo 
that I may have signed, and I will talk to her later. But the 
answer to your question is no. I am bound by your regulations. 
If in fact that memo was initialed by me, it will be corrected. 
We have a position.
    But it goes back to our basic point. We need the leverage 
in order to get to where we are going.
    Senator Grams. I would like to pass it on to Senator Biden 
now because of time. Senator.
    Senator Biden. Thank you, Mr. Chairman.
    I will ask in that case only one question as well. And I 
might point out, I did not like the Helms-Biden package either. 
It is just that my friends who wanted all the money could not 
find a nickel, not one plug nickel. So at least we were able to 
get from where Chairman Helms was, way below $500 million, up 
to close to a billion.
    Ambassador Holbrooke. Of huge importance.
    Senator Biden. But that is not even done yet, and the House 
appropriators--the appropriators I am told made a change that I 
would like to find out from you whether or not, what kind of 
impact you think it has. Senator Helms and I agreed that we 
would front-end load a little more some of the money to offset 
the undisputed peacekeeping moneys owed by the United States 
against the reductions in U.S. arrear. So we had agreed in year 
2 that there be $107 million made available.
    But appropriators in Commerce, Justice, State moved this 
$107 million in debt relief from year 2 to year 3. Now, we 
fought awful hard to get it moved to year 2, to front-end load 
this money, because we were told by your predecessors and 
acting and as well as my visits to meet with the Secretary 
General and his staff that that would make a difference.
    Can you comment on the degree of difficulty to which it 
increases your job, if at all? Or is it not as important? 
Obviously, we do not have anything yet, so I guess maybe 
talking about----
    Ambassador Holbrooke. You are talking about the changes 
that occurred in the conference report?
    Senator Biden. Correct, correct.
    Ambassador Holbrooke. Senator Biden, these changes--there 
are two different issues here. But I was pledged, as you well 
remember, to carry out the Helms-Biden package, not to try to 
improve it. Notwithstanding the position of Senator Lugar and 
Senator Sarbanes, we were committed not to seek improvements in 
it.
    Then a series of events resulted in a conference report 
which contained, as the President's veto language on the 
Commerce, Justice, State bill made clear, final changes, two of 
which in effect left us with a certainty of losing our vote.
    Senator Biden. Made it worse?
    Ambassador Holbrooke. Oh, much worse.
    Now, these are highly arcane and technical things to the 
average listener, but they had no ambiguity of meaning in New 
York. The bill as it was sent to the President, which he 
vetoed, would have without question cost us our vote because of 
the change from year 2 to year 3 in the $107 million credit. 
How ironic, therefore, that that was the money that was going 
to come right back to the Pentagon. With the greatest of 
respect to members of other committees, I just did not 
understand it.
    May I also, Mr. Chairman, just bring these charts to your 
attention because they are indirectly related before we 
adjourn.
    Senator Biden mentioned peacekeeping. I first testified 
before the Congress in 1977. I have been testifying for 23 
years. The one thing which has been consistent throughout those 
years, both Houses, both parties, was the U.S. should share the 
burden. The chart that you see before you shows the number of 
Americans who have served in and out of uniform under the U.N. 
from 1995 to today. The number now is somewhere around 10 
percent or less of what it was 6 years ago. I believe that is a 
direct response to congressional concern.
    The next chart shows an even more amazing fact, which is 
that the total number of Americans in uniform attached to U.N. 
peacekeeping right now is 36. And as you can see, they are all 
liaison and observers.
    [The charts referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ambassador Holbrooke. We have responded to the 
congressional request to get us out of the blue-helmet 
business. We have learned the dreadful lesson of Somalia and 
Bosnia, although we were not in the Bosnia peacekeeping, but 
those two disastrous events overshadow us. At this point we are 
supporting these peacekeeping efforts in East Timor, Sierra 
Leone, and elsewhere, but we need to make them work.
    I want to be sure that, in response to Senator Biden's 
question, the Congress notes how much the administration has 
listened to your requests on this point.
    Thank you.
    Senator Biden. Thank you, Mr. Chairman.
    Senator Grams. Thank you, Senator Biden.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Ambassador Holbrooke, in Kosovo where you visited recently 
and is on your mind almost every day, there were reports that 
the budget to support the peacekeeping during the coming weeks 
and months of the winter is deficient. In this case, much of 
the finger-pointing goes to European friends who have made 
pledges of money that Mr. Kouchner has not been receiving.
    What is going to happen there? Literally, the problems are 
many: humanitarian issues involving shelter and clothing for 
people who are not properly housed, the general peacekeeping 
business of law and order, the problems of the agreement which 
does not lead to an independent state, and the criticism of Mr. 
Kouchner for adopting the Deutsch Mark and avoiding the issue 
of an independent country or entity and the consequent customs 
problems, smuggling, and so forth.
    In the midst of this, with no money this is likely to be a 
very great disaster. We have 7,000 Americans, more or less, 
involved in the operation that are of great interest to our 
country, as well as what happened in the war that we just 
completed. What can you tell us about this and how is it to be 
financed in the midst of this general problem of our U.N. dues 
and the overall U.N. problem? What about our allies in this 
case?
    Ambassador Holbrooke. Senator Lugar, there are four related 
aspects of your question: the relief effort, the assistance to 
Kouchner for running Kosovo, the question of the safety of the 
American and other NATO troops, and the final status of Kosovo. 
Let me be very quick.
    On the relief effort, it is a race against winter, but I 
believe--please do not hold me to this--I believe the issue 
here is not funds so much as organization. But there are some 
funding problems.
    On the other part of your problem, Dr. Kouchner will be in 
New York the day after tomorrow to address the Security Council 
and address this. He called me last weekend from Pristina 
frantic, saying he was running out of money. We had at that 
point given him only $4 million. I stated that publicly, the 
New York Times reported it, I was attacked by my own colleagues 
in the State Department for misstating the situation. I said: 
Where is the money? They said: It is in the pipeline. I said: 
The pipeline does not mean it has gotten there.
    I am pleased to say that since then an additional $37 
million, I believe, maybe $31 million, either $31 million or 
$37 million, has gotten to the U.N. So the money is beginning 
to flow. It is going much too slowly, and the point you have 
made and Senator Biden and others have made, that if we do not 
pay our part the rest of the world is understandably going to 
lag, is operative here.
    We have also notified the Congress of an additional $10 
million that we need for the Kosovo Protection Corps. That is a 
very controversial issue. We stand alone, virtually alone in 
supporting it. The Europeans are not happy with it.
    I have been given that $31.25 million is at the United 
Nations, so the correct number is $31.25 million since my 
public statement on the $4 million.
    But that does not include the Kosovo Protection Corps, 
which many Members of this body have shown particular interest 
in, including Senator McConnell. We support that as a 
demilitarization of the KLA, and that money needs to be 
raised--needs to be up there.
    We are also, Barbara points out, going to seek additional 
Kosovo funding in the regular budget during negotiations.
    The third point is the U.S. troops, and this goes to the 
heart of what all six Senators who have been here, all seven 
Senators who have spoken here today, have made the point. We 
have American troops at risk. Everyone knows that American and 
NATO soldiers do not want to do police work. If we underfund 
the police, which are under the United Nations, the U.S. 
soldier is left with two choices if he sees a person, he or she 
sees a person harassing someone else or setting fire: Either 
leave the person alone or shoot them.
    The NATO forces do not have arrest capability. That is the 
police function.
    Frederickson, the brilliant Danish police commissioner 
under the United Nations, is very frustrated because he does 
not have enough people, he is underfunded. The only way to get 
the police there, which are essential to safety for the NATO 
troops, and in the long run in both Bosnia and Kosovo are 
critical to our drawdowns, which I know all of you would like 
to see as soon as possible, is to fund the U.N. portion of the 
police.
    Finally, your most important and most difficult point, 
which deserves, if I might suggest, separate discussions at 
another date in another forum, the final status. Let me be very 
clear on this. The U.N. Security Council Resolution 1244 states 
in a very artful and creative piece of opaqueness, which was 
necessary for the bombing to stop, that Kosovo will remain part 
of Yugoslavia pending a final settlement. That is a paraphrase, 
but it is fairly close.
    For the Russians and the Chinese, it is the phrase up to 
the comma that counts. For the United States, it is clearly 
implied that there has to be a final settlement of some sort. 
That settlement cannot take place as long as Slobodan Milosevic 
is President of Yugoslavia. There cannot be a negotiation with 
an indicted war criminal.
    So the highest priority without any question at all must 
remain the change in the leadership in Belgrade. Secretary 
Albright, Sandy Berger, many of you today, and I later this 
afternoon are meeting with members of the Serb opposition. If I 
am not mistaken, they are actually on the Hill right about now 
or they will be shortly. I urge you to meet with them. I will 
be seeing them later today.
    This is the sine qua non of an orderly exit from the 
Balkans in a finite period of time, and no issue is more 
complicated or more critical for our national security 
interests.
    Senator Grams. Thank you, Mr. Ambassador.
    Senator Kerry, you were here first and I will go ahead and 
defer to you, unless you want to defer to Mr. Sarbanes.
    Senator Kerry. I just have one question. Mr. Ambassador, in 
today's Washington Post Congressman Smith wrote a column taking 
the U.N. head-on and frankly taking your assessment of the good 
and evil question, essentially asserting that you have it 
backward. But he particularly says--he talks about:
    ``The total U.S. assessed and voluntary support of U.N. 
operations amounts to at least $57 billion. The far smaller 
amount that is in dispute, the so-called arrearages for which 
U.N. critics have been accused of being deadbeats and 
isolationists, arises mostly from specific policy disputes, 
such as the Bosnia peacekeeping operation, U.N. subsidies for 
the Palestine Liberation Organization, and cold war era 
kickbacks to Communist governments from U.N. employee 
salaries.''
    Could you respond to both the assertion with respect to 
your assessment of good and evil and how that is represented 
here and, second, to this, the arrearages, as he has summed it 
up?
    Ambassador Holbrooke. Thank you, Senator Kerry.
    Senator Sarbanes. Could I? I do think we ought to give the 
Ambassador a pass, if he chooses to use it, given his efforts 
right now on the Hill to see if we cannot get a solution.
    Senator Kerry. Well, I am not asking him to go to war. I am 
just asking him to clarify for the record what the reality of 
those are, and it is certainly going to be central to any 
discussions with Mr. Smith as we proceed forward.
    Ambassador Holbrooke. I appreciate both the question and 
Senator Sarbanes' intervention. Senator Sarbanes is quite 
correct in that I do not want to get into personal disputes 
with elected officials who are doing their duty as they see it. 
In fact, even as this article was being printed I was publicly 
commenting at the National Press Club yesterday about the 
author of that article is a man of conviction and passion in 
pursuit of his own beliefs.
    I am sorry that he chose to take comments I had made in my 
book and in a speech about the fact that evil exists in the 
world and must be recognized, which were not anywhere related 
to the United Nations, and link the two.
    On Senator Kerry's key point, the specifics that you 
alluded to are specifically exempted in the Helms-Biden 
package. So on a purely factual basis, this article is just 
wrong, and I need hardly make that point to your committee 
since you were very clear in saying this money does not go for 
these things.
    Senator Kerry. Thank you, Mr. Chairman.
    Senator Grams. Thank you, Senator Kerry.
    Senator Sarbanes.
    Senator Sarbanes. Mr. Chairman, I know we have a vote on. I 
will be very brief.
    I am becoming concerned, and I understand why the focus 
should be on losing our vote at the General Assembly, but that 
is only part of the problem and, while the symbolism of that is 
very great, in the total picture may be the lesser part of the 
problem, because it seems to me that doing the minimum that 
keeps our vote in the General Assembly is not going to solve 
the situation of what has happened to American leadership and 
influence in this world body.
    Now, my understanding is that the people that are scoring 
off of us in the U.N. over this issue are not those we have in 
the past regarded as kind of antagonists within the world 
forum, but those who have been in a sense our closest allies, 
who are sort of saying, well, look, there is the U.S., they 
cannot deliver on the thing and we can, and therefore you 
should look to us more than to them for the direction and the 
purpose of this world institution.
    Am I in error that you are running into that kind of 
situation?
    Ambassador Holbrooke. No, I agree with everything you said 
and I want to underline that this is not simply about salvaging 
our vote in the General Assembly, as was done last year, by 
cobbling together one dollar more than the minimum required. It 
is about the full Helms-Biden package. If we do not get it now, 
we are not going to get it next year because it is not inside 
the budget cap. That will leave the next President of the 
United States with a $2 billion assessment, which will not be 
fun for whoever it is.
    So your larger point is underlying our purpose. You have 
given us a road map. We--and by ``we'' I mean the President, 
the Secretary of State, the administration--are pledged to use 
every effort we can to use every effort we have to carry it out 
from now to the end of this administration, and that is the 
full $926 million, not the much lower amount needed to keep our 
vote.
    So I appreciate your point.
    Senator Sarbanes. Thank you, Mr. Chairman.
    Senator Biden. Mr. Chairman, may I make a very brief, 10-
second comment? If we do not do it this year, I want to make it 
clear to everyone even I do not think Helms-Biden will get the 
job done next year. As a matter of fact, I think by delaying it 
an entire year--I truly believe whomever we had at the United 
Nations, particularly you, could have gotten it done 14 months 
ago if we had done it. It gets exponentially harder with the 
same number every year.
    So no one should think that we can continue to kick the can 
down the road on Helms-Biden, because Biden does not think 
Helms-Biden can get the job done down the road, and it is going 
to be hard now, much harder than it was last year.
    Ambassador Holbrooke. I agree, and I just hope that 
Americans listening to this hearing understand what all of us 
have been trying to say. This is not about the U.N. It is about 
American national security interests.
    Senator Grams. Mr. Ambassador, we have about 7 minutes left 
in this vote and it is 3 votes back to back and it would be 
about 45 minutes or longer before we could be back. I do not 
know what your schedule is. I could make changes in mine to 
come back. Otherwise, I would have just a couple of quick 
questions to ask before we adjourn the hearing.
    Ambassador Holbrooke. I am at your disposal always, Mr. 
Chairman. But I also do need--I have four or five appointments 
on the House side that I would much appreciate going to do. But 
my first obligation is always to this committee, so you tell 
me.
    Senator Grams. I will just ask one more brief question if I 
could, then. It is dealing with oversight and I want to talk 
about it against the backdrop of an increased proposed budget, 
and of these statements by Under Secretary General Paschke that 
internal controls at the U.N.--as I stated earlier in the 
opening statement--are weak and accountability there is 
blurred. And he criticized the Fifth Committee for having--and 
I quote now--``stymied Secretary General Kofi Annan's reform 
proposals,'' stating that its members, paying ``lip service to 
reforms, simply put on the brakes when it comes time to make 
the changes.''
    I must admit that I always appreciate, I think, a healthy 
dose of candor, especially from those that are about to leave 
their positions. Even the Secretary General has made remarks 
about the U.N. that it could be streamlined and reforms are 
necessary. He has made probably some of the best arguments for 
reforms and oversight.
    Where do you think the choke points are in the U.N. system 
which stifle this reform? Where is the opposition to putting 
some of this reform into play?
    Ambassador Holbrooke. In my own personal view the Secretary 
General's role is too weak, but I am not in a position to solve 
that. I intend to address it in some speeches and reform 
proposals later. Mr. Paschke, who I knew when I was Ambassador 
to Germany, who I am proud to say I helped support for the job 
when I was in Bonn, has spoken candidly and honestly. I agree 
with what he said. I intend to fight very hard to make sure 
that his successor will be a qualified non-diplomat, my 
apologies to my colleagues in the Foreign Service, but a person 
with accounting and business skills. I do not care what country 
the person comes from. I just care about his or her 
qualifications.
    As for the Fifth Committee, I am very grateful to your 
committee for having heard and moved so rapidly up to this 
point on the nomination of, I hope, Don Hays and Jim 
Cunningham. Don Hays will be, if confirmed by the Senate, an 
absolute bulldog in Fifth Committee. He will sit there, and 
anyone who has met him knows that he is the best we have got. 
Jim Cunningham, who is, or at least was a half hour ago, seated 
behind me here, will be a superb successor to Peter Burleigh.
    For all of them, as for me, reform will be our goal. So all 
I can say is Paschke is speaking the truth and we are going to 
back him up.
    But this is, just like getting votes in the Congress, this 
is vote-getting on a retail basis. We have to go back to the 
countries who do not understand what we are doing and why and 
show them that reforming the U.N. is in their interests as 
well, and remove this latent grudging anger at us, which is not 
just ``Third World anti-Americanism.'' It comes from--one of 
the worst speeches about us was done by New Zealand. You know 
why, Mr. Chairman.
    But we have to deal with this understandable anger. I am 
looking forward to doing it, and particularly with the 
assistance of Don Hays and Jim Cunningham.
    Senator Grams. Talking about choke points, just to 
followup, Great Britain has threatened to cutoff funding to 
some U.N. programs unless the U.N. takes aggressive action to 
halt waste and mismanagement. Why have they not been more vocal 
then in supporting the U.S. reform efforts?
    Ambassador Holbrooke. Why have they what?
    Senator Grams. Why have they not been more vocal in 
supporting the U.S. reform efforts? We talk about choke points.
    Ambassador Holbrooke. Are you talking about why Paschke has 
not been more vocal?
    Senator Grams. No, why Great Britain has not, even though 
they said that they would even threaten to cutoff pounds to 
U.N. programs.
    Ambassador Holbrooke. You would have to ask--I think you 
should probably address to the British Government their own 
actions. But you heard Ambassador Greenstock's speech in Fifth 
Committee. I think it was the day after you were in New York. 
You would see that his speech was not very--he did not praise 
the U.S., either. Our closest allies are constrained in working 
with us because of the arrears problem.
    Senator Grams. Well, thank you, Mr. Ambassador. I think as 
you know, we want to work with you very closely on this arrears 
package and to complete it, and then also to continue working 
very closely with you to give you the support you need to help 
with the reforms. And as many trips as we can make to New York 
to help you, we will make. You have our commitment to do that.
    Senator Biden. We will try to bring money.
    Ambassador Holbrooke. You can come without money if you 
must, but the greatest value--and I think Senator Grams' trip 
illustrated this--is to explain to the U.N. that we are all on 
the same wavelength here and the differences are tactical. I 
look forward very much, Senator Biden, to your trip on November 
15.
    Senator Biden. I look forward as well. You are doing a hell 
of a job.
    Senator Grams. I appreciate it, and I am sorry about the 
abbreviated hearing. But I thank you very much for your time to 
come before the committee.
    The hearing is concluded.
    [Whereupon, at 3:48 p.m., the subcommittee was adjourned.]

                                  <all>

</pre></body></html>
